No. 20-6668
IN THE SUPREME COURT OF THE UNITED STATES
CHRISTOPHER ZAMARRIPA, PETITIONER
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 19th day of March, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

March 19, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-6668
ZAMARRIPA, CHRISTOPHER
USA

KRISTIN MICHELLE KIMMELMAN
FEDERAL PUBLIC DEFENDERS OFFICE
727 E. CESAR E. CHAVEZ BLVD
B-207
SAN ANTONIO, TX 78206
915-534-6525
KRISTIN_KIMMELMAN@FD.ORG

